HHS/OIG, Audit-"Review of the Medicaid Drug Rebate Program in Alaska,"(A-10-03-00006)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Medicaid Drug Rebate Program in Alaska," (A-10-03-00006)
July 23, 2003
Complete
Text of Report is available in PDF format (897 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to evaluate whether the Alaska Department of Health and Social Services (the State agency)
had established adequate accountability and internal controls over the Medicaid drug rebate program.  We found that
the State agency had not established adequate policies, procedures, and internal controls over its drug rebate program.  Specifically,
we identified weaknesses in the following areas:  (1) quarterly reporting, (2) accounts receivable system, (3) segregation
of duties, (4) interest accrual and collection, and (5) dispute resolution.  Federal regulations require effective
control and accountability for all funds, property, and other assets.  As a result, the State agency did not properly
report drug rebate information to Centers for Medicare and Services nor adequately establish policies, procedures, and
internal controls to account for drug rebate program transactions.  In addition, the lack of adequate internal controls
increased the risk for fraud, waste and abuse of drug rebate program funds.  The State agency generally concurred
with our findings.